First District Court of Appeal
State of Florida
No. 1D19-28
David Frank Petrano, Mary
Katherine Day-Petrano, and
DONNA Ross, “unknown Tenant
I,”

Appellants,
v.
Darlene P. Baylor,
Appellee.

On appeal from the Circuit Court for Alachua County.
Monica J. Brasington, Judge.
April 15, 2020
Per Curiam.
Affirmed.
Ray, C.J., and ROWE and TANENBAUM, JJ., concur.

a

Not final until disposition of any timely and
authorized motion under Fla. R. App. P. 9.330 or
9.331.

David F. Petrano, pro se, and Mary Katherine Day-Petrano, pro
se, Appellants.
Ronald A. Hertel of Chiumento Dwyer Hertel Grant & Kistemaker,
PL, Palm Coast, for Appellee.

2

IN THE CIRCUIT COURT, EIGHTH JUDICIAL CIRCUIT, IN AND
FOR ALACHUA COUNTY, FLORIDA
CASE NO.: 2012 CA 1688 MG
DARLENE P. BAYLOR,
Plaintiff,
vs.
DAVID FRANK PETRANO, an individual,
MARY KATHERINE DAY-PETRANO, an
individual, unknown Tenant I, unknown
Tenant II, and other unknown persons or
unknown spouses claiming by, through and
under any of the above named Defendants.
Defendants).
FINAL JUDGMENT OF FORECLOSURE AND FOR DAMAGES
THIS CAUSE came before the Court on February 1, 2017 for non­
jury trial on the following claims of Plaintiff, DARLENE P. BAYLOR
(hereinafter, “BAYLOR”):

(1) Foreclosure of Mortgage and, in the

alternative, (2) Promissory Note.

The Court, having considered the

pleadings, exhibits, affidavits, and other proofs filed herein, and having
heard the argument of counsel, and being otherwise fully advised on the
-1 -

01-2012-CA-J 688
Final Judgment ofForeclosure andfor Damages
premises, makes the following findings of fact:
1.

This Court has jurisdiction of and over the subject matter of

this cause and over the parties to this action.
2.

The address of Defendant, DAVID FRANK PETRANO, is

11502 SE HWY 301, Hawthorne, Florida 32640.

The address of

Defendant, MARY KATHERINE DAY-PETRANO, is 11502 SE HWY
301, Hawthorne, Florida 32640. The address of Plaintiff, DARLENE P.
BAYLOR is c/o CHIUMENTO SELIS DWYER, P.L., 145 City Place,
Suite 301, Palm Coast, Florida 32164.
3.

The Defendants in this action have been served with a

Summons and a copy of the Amended Complaint filed by the Plaintiff in
this action and have answered the Amended Complaint.
4.

Borrowers/Defendants, DAVID FRANK PETRANO and

MARY KATHERINE DAY-PETRANO, are in breach of the
Promissory Note and Mortgage (the “Loan Documents”), and are in
default. Therefore, Plaintiff is entitled to the entry of Final Judgment of
Foreclosure and Damages.

-2-

01-2012-CA-1688
Final Judgment ofForeclosure and for Damages
ihe Court has heard testimony in this case. The ecmities are
with the Plaintiff and against the Defendants.
6.

The Court finds that Plaintiffs security interest was perfected

through valid execution and recordation of the Mortgage in the Public
Records in and for Alachua County, Florida, O.R. Book 3967 at Page
1445.
7.

Plaintiff is the prevailing party as to all Counts of her

complaint.
8.

Based upon the failure of the Defendants to appear at the

specially set trial, the entirety of Defendants’ affirmative defenses have
been stricken and/or waived by the Defendants. Therefore,
IT IS ORDERED AND ADJUDGED THAT:
1.

Final Judgment of foreclosure, in favor of the Plaintiff, is

GRANTED.
2.

There is presently due to the Plaintiff under the Loan

Documents sued upon the following sums:
$148,487.59

Principal Due on Note:

-3-

01-2012-CA-1688
Final Judgment ofForeclosure and for Damages
$44,914.40

Accrued Interest on Note (1840
days with per diem of $24.41):

$3,418.20

Late Fees on Note ($63.30/month
for 54 months):________________
Total Amount Due under Note as
of February 1, 2017 (not
including attorneys’ fees and
costs):______________________

$196,820.19

Thus, Plaintiff, DARLENE P. BAYLOR, is awarded a final
judgment

of foreclosure

against Defendants,

DAVID

FRANK

PETRANO and MARY KATHERINE DAY-PETRANO, in the total
amount of $196,820.19. which shall bear interest at the rate of 4.97% per
annum.
3.

Specifically, Plaintiff, DARLENE P. BAYLOR, shall

recover from Defendants, DAVID FRANK PETRANO and MARY
KATHERINE DAY-PETRANO, the principal liquidated sum of
$148,487.59, plus $44,914.40 in prejudgment interest, plus $3,418.20 in
late fees, for a total sum of $196,820.19. which shall bear interest at the
rate of 4.97% per year, for which let execution issue,

This sum is

exclusive of awardable costs and attorney’s fees, for which entitlement
_4_

01-2012-CA-l688
Final Judgment ofForeclosure and for Damages
to and amount shall be determined by the court upon motion and
hearing.
4.

Pursuant to the November 10, 2015 Order of Judge Catherine

Peek McEwen, entered in the United States Bankruptcy Court, Middle
District of Florida, Tampa Division, Cases No. 8:14-bk-03348-CPM
MARY, 8:14-bk-01368-CPM (Cases Jointly Administered under Case
No. 8:14-bk-03349-CPM), this Final Judgment “shall not be enforced
without further relief from [the Bankruptcy] Court.”

As such, the

requested foreclosure sale date and time (see, paragraph 7 hereto) shall
be set via further Order of this Court, pending an Order permitting same
issuing from the Bankruptcy Court.
5.

The Mortgage sued on by the Plaintiff in this cause

constitutes a valid and perfected first lien on the Property, and the
Mortgage is in default as alleged in the complaint.
6.

Plaintiff holds a lien for the total sum superior to any claim

or estate of Defendants on the real and personal property described in
the Mortgage (together herein described as the “Property”) located in

-5-

01-2012-CA-l 688
Final Judgment ofForeclosure and for Damages
Alachua County, Florida, which is more particularly described as:
7 * r\
PARCT7"’" 3: A PARCEL 07 LARD LOCATED IN SECTION
TOWNSHIP 11 SOUTH, RANGE 22 EAST, ALACHUA COUNTY,
FLORIDA AND BEING MORE PARTICUARLY DESCRIBED AS
FOLLOWS:

COMMENCE AT A FOUND 4” X 4” CONCRETE MONUMENT
MARKING THE SOUTHWEST CORNER OF SECTION 10,
TOWNSHIP 11 SOUTH, RANGE 22 EAST, ALACHUA COUNTY,
FLORIDA; THENCE ALONG THE SOUTH LINE OF SAID
SECTION 10, NORTH 87°27’09” EAST, A DISTANCE OF 1314.47
FEET TO A FOUND 4” X 4” CONCRETE MONUMENT;
THENCE CONTINUE ALONG SAID LINE NORTH 87"27’09”
EAST, A DISTANCE OF 198.05 FEET TO A POINT MARKING
THE INTERSECTION OF SAID SOUTH LINE WITH THE
WEST RIGHT-OF-WAY LINE OF THE S.A.L. RAILROAD,
THENCE ALONG THE WEST RIGHT-OF-WAY LINE NORTH
06”47’39” EAST, A DISTANCE OF 1648.57 FEET TO A SET 5/8”
REBAR AND CAP (#3524) MARKING THE POINT OF
BEGINNING; THENCE CONTINUE NORTH 06°47’39” EAST, A
DISTANCE OF 309.58 FEET TO A FOUND 5/8” REBAR AND
CAP (#3524); THENCE SOUTH 87°26’00” WEST, A DISTANCE3
OF 735.00 FEET TO A SET 5/8” REBAR AND CAP (#3524);
THENCE SOUTH 01°26’21” EAST, A DISTANCE OF 305.52
FEET TO A SET 5/8” REBAR AND CAP (#3524); THENCE
NORTH 87°26’00” EAST, A DISTANCE OF 690.65 FEET TO THE
POINT OF BEGINNING.
7.

If the total sum above with interest at the rate prescribed by

law, and all costs accrued subsequent to the Final Judgment, are not paid
in full, the Clerk of this Court shall sell the Property at public sale on
-6-

01-2012-CA-1688
Final Judgment ofForeclosure and for Damages
TBD

, 20

, at 11:00 a.m., or soon thereafter,

to the highest bidder for cash, except as set forth in this Final Judgment,
online at http://www.alachua.realforeclose.com, in accordance with
§45.031, Fla. Stat. Prior to the sale, the Plaintiff must pay the sale fee
required by §45.035(1), Fla.Stat., and the online sale may be conducted
even if the Plaintiff does not participate.
8. ' Plaintiff may assign this Final Judgment and her credit bid by
the filing of a Notice of Assignment without further order of this Court.
9.

Plaintiff shall advance all subsequent costs of this action and

shall be reimbursed for them by the Clerk if Plaintiff is not the purchaser
of the Property at the foreclosure sale. If Plaintiff is the purchaser, the
Clerk shall credit Plaintiffs bid with the total sum due under this Final
Judgment together with interest, attorneys fees and costs accruing
subsequent to this Final Judgment, or such part of it, as is necessary to
pay the bid in full.
10.

After confirmation of the sale, whether confirmation is by the

Clerk’s filing of the Certificate of Title or by Order of this Court ruling

-7-

01-2012-CA-1688
Final Judgment ofForeclosure and for Damages
on objections to the sale, the Clerk shall distribute the proceeds of the
sale, so far as they are sufficient, by paying: first, all of Plaintiff s costs;
second, Plaintiffs attorneys’ fees; third, the total sum due to Plaintiff
plus interest at the rate prescribed by law from this date to the date of the
sale; and last, by retaining any remaining amount pending the further
order of this Court.

The highest bidder at the sale shall pay the

documentary stamps affixed to the Certificate of Title and the cost, if
any, of recording the Certificate of Title.
11.

Notice pursuant to §45.031, Fla. Stat.:

.IF THIS PROFETY IS SOLD AT PUBLIC AUCTION.
THERE MAY BE ADDITIONAL. MONEY FROM THE SALE
AFTER PAYMENT OF PERSONS WHO ARE ENTITLED TO BE
PAID FROM THE SALE PROCEEDS PURSUANT TO THE
FINAL JUDGMENT.
IF YOU ARE A SUBORDINATE LIENHOLDER
CLAIMING A RIGHT TO FUNDS REMAINING AFTER THE
SALE, YOU MUST FILE CLAIM WITH THE CLERK NO
LATER THAN SIXTY (60) DAYS AFTER THE SALE. IF YOU
FAIL TO FILE A CLAIM, YOU WILL NOT BE ENTITLED TO
ANY REMAINING FUNDS.
12.

On filing the Certificate of Title, Defendants and all persons

claiming under or against Defendants since the filing of the Notice of
-8-

01-2012-CA-1688
Final Judgment of Foreclosure and for Damages
Lis Pendens shall be forever foreclosed of all right, title, interest, estate,
or claim in the Property being sold, and shall be forever barred and
foreclosed of any and all equity or right of redemption in and to said
Property.
13.

After the conclusion of the sale, whether confirmation is by

the Clerk’s filing of the Certificate of Title or by Order of this Court
ruling on objections to the sale, the purchaser at the sale, its agents,
representatives, successors or assigns, shall without delay be let into
possession of the Property as conveyed, and should anyone not deliver
possession of the Property to the purchaser, the Clerk shall, upon request
and without further order of the Court, immediately issue a writ of
possession and deliver same to the sheriff for execution.
14.

Any advances or additional costs of the Plaintiff may be

added to the amount of Plaintiff’s judgment prior to the public sale by
filing with the Clerk of Court an affidavit of the Plaintiff which is served
on all parties, including defaulted parties, prior to the date of the sale,
which affidavit includes proof of payment of any such advances or

-9-

01-2012-CA-1688
Final Judgment ofForeclosure and for Damages
additional costs.
15.

Jurisdiction of this action is retained to enter further orders as

are proper including, without limitation, deficiency judgments, sales
information as required in paragraph 7 of this order, determination of
entitlement and amounts of attorneys’ fees and costs, liquidation of
attorneys’ fees and costs, and writs of possession.
DONE AND ORDERED in Alachua County, Florida this 1 st day
of February, 2017.
MONICA J. BRASINGTON
Circuit Court Judge
CERTIFICATE OF SERVICE
I HEREBY CERTIFY that copies have been furnished by via E-Mail on
this 1st day of February, 2017 to the following:
Mary Katherine Day-Petrano
ponyhunterjumper@yahoo. com

David Frank Petrano
dpetrano@y ahoo. com
Ronald A. Hertel, Esq.
rhertel@palmcoastlaw.com
karolyn@palmcoastlaw.com

By: Ruby Dunaway, Judicial Assistant
- 10-

IN THE CIRCUIT COURT, EIGHTH JUDICIAL CIRCUIT, IN AND
FOR ALACHUA COUNTY, FLORIDA
CASE NO.: 2012 CA 1688 MG
DARLENE P. BAYLOR,
Plaintiff,
vs.
DAVID FRANK PETRANO, an individual,
MARY KATHERINE DAY-PETRANO, an
individual, unknown Tenant I, unknown
Tenant II, and other unknown persons or
unknown spouses claiming by, through and
under any of the above named Defendants.
Defendant(s).
ORDER AMENDING FINAL JUDGMENT OF FORECLOSURE
AND FOR DAMAGES
THIS CAUSE came before the Court for hearing on February 26,
2018, on Plaintiff, DARLENE P. BAYLOR’s, Motion to Amend Final
Judgment to Set Foreclosure Sale Date, and the Court, having
considered the pleadings, having heard the argument of counsel and the
parties, and being otherwise fully advised on the premises hereby finds
that:
-1 -

1.

After trial, on February 1, 2017, this Court entered its Final
Judgment of Foreclosure and for Damages in the instant case,
granting both a monetary judgment and finding the right to
foreclose a lien on real property within the jurisdiction of this
Court.

2.

The Final Judgment of Foreclosure and for Damages
specifies on its 5th page, 4th paragraph, that, “the requested
foreclosure sale date and time ... shall be set via further
Order of this Court, pending an Order permitting same
issuing from the Bankruptcy Court.”

3.

On November 9, 2017, United States Bankruptcy Court
Judge Catherine Peek McEwen, in her Order Granting
Further Relief, amended her prior order granting partial relief
from stay to now “allow the Circuit Court in and for Alachua
County Florida to amend the Final Judgment to set a date for
foreclosure ... The sale may be set no sooner than October
30, 2018[.]”

'4.

As such, the Court finds that Plaintiff is entitled to the relief
-2-

sought in her Motion to Amend Final Judgment to Set
Foreclosure Sale Date, namely, the setting of a foreclosure
sale to take place no sooner than October 30, 2018.
As such it is

ORDERED AND ADJUDGED THAT
1.

Plaintiffs Motion to Amend Final Judgment to Set
Foreclosure Sale Date is hereby GRANTED.

2.

The Final Judgment of Foreclosure and for Damages in this
case is hereby amended to state, on its page 6, paragraph 7,
that:
7.
If the total sum above with interest at the rate
prescribed by law, and all costs accrued subsequent to
the Final Judgment, are not paid in full, the Clerk of
this Court shall sell the Property at public sale on
October 30. 2018. at 11:00 a.m., or soon thereafter, to
the
highest
bidder
for
cash
online
at
http://www.alachua.realforeclose.com. in accordance
with Fla.Stat. 45.031. Prior to the sale, the Plaintiff
must pay the sale fee required by Fla.Stat. 45.035(1),
and the online sale may be conducted even if the
Plaintiff does not participate.

3.

The remaining portions of the February 1, 2017 Final
Judgment of Foreclosure and for Damages are remain
-3-

unaltered by virtue of this Order.
DONE AND ORDERED in Alachua County, Florida this 26th day
of February, 2018.

22

MONICA J. BRASINGTON
Circuit Court Judge
CERTIFICATE OF SERVICE
I HEREBY CERTIFY that copies have been furnished by via E-Mail on
this 26th day of February, 2018 to the following:
David Frank Petrano
dpetrano@vahoo .com

Mary Katherine Day-Petrano
ponyhunterjumper@yahoo.com
Ronald A. Hertel, Esq.
rhertel@palmcoastlaw.com

By: Ruby Dunaway, Judicial Assistant

.4.

